<html>
<title> - THE MIDDLE EAST AND NORTH AFRICA FY 2014 BUDGET: PRIORITIES AND CHALLENGES</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
    THE MIDDLE EAST AND NORTH AFRICA FY 2014 BUDGET: PRIORITIES AND 
                               CHALLENGES

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    THE MIDDLE EAST AND NORTH AFRICA

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 22, 2013

                               __________

                           Serial No. 113-41

                               __________

        Printed for the use of the Committee on Foreign Affairs


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______




                  U.S. GOVERNMENT PRINTING OFFICE
81-169                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0364736c43607670776b666f732d606c6e2d">[email&#160;protected]</a>  

                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ALBIO SIRES, New Jersey
TED POE, Texas                       GERALD E. CONNOLLY, Virginia
MATT SALMON, Arizona                 THEODORE E. DEUTCH, Florida
TOM MARINO, Pennsylvania             BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          KAREN BASS, California
ADAM KINZINGER, Illinois             WILLIAM KEATING, Massachusetts
MO BROOKS, Alabama                   DAVID CICILLINE, Rhode Island
TOM COTTON, Arkansas                 ALAN GRAYSON, Florida
PAUL COOK, California                JUAN VARGAS, California
GEORGE HOLDING, North Carolina       BRADLEY S. SCHNEIDER, Illinois
RANDY K. WEBER SR., Texas            JOSEPH P. KENNEDY III, 
SCOTT PERRY, Pennsylvania                Massachusetts
STEVE STOCKMAN, Texas                AMI BERA, California
RON DeSANTIS, Florida                ALAN S. LOWENTHAL, California
TREY RADEL, Florida                  GRACE MENG, New York
DOUG COLLINS, Georgia                LOIS FRANKEL, Florida
MARK MEADOWS, North Carolina         TULSI GABBARD, Hawaii
TED S. YOHO, Florida                 JOAQUIN CASTRO, Texas
LUKE MESSER, Indiana

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

            Subcommittee on the Middle East and North Africa

                 ILEANA ROS-LEHTINEN, Florida, Chairman
STEVE CHABOT, Ohio                   THEODORE E. DEUTCH, Florida
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
ADAM KINZINGER, Illinois             BRIAN HIGGINS, New York
TOM COTTON, Arkansas                 DAVID CICILLINE, Rhode Island
RANDY K. WEBER SR., Texas            ALAN GRAYSON, Florida
RON DeSANTIS, Florida                JUAN VARGAS, California
TREY RADEL, Florida                  BRADLEY S. SCHNEIDER, Illinois
DOUG COLLINS, Georgia                JOSEPH P. KENNEDY III, 
MARK MEADOWS, North Carolina             Massachusetts
TED S. YOHO, Florida                 GRACE MENG, New York
LUKE MESSER, Indiana                 LOIS FRANKEL, Florida


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Beth Jones, Acting Assistant Secretary of State, 
  Bureau of Near Eastern Affairs, U.S. Department of State.......     4
Ms. Alina L. Romanowski, Acting Assistant Administrator, Bureau 
  for the Middle East, U.S. Agency for International Development.    14

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Beth Jones: Prepared statement.....................     6
Ms. Alina L. Romanowski: Prepared statement......................    16

                                APPENDIX

Hearing notice...................................................    48
Hearing minutes..................................................    49
The Honorable Ileana Ros-Lehtinen, a Representative in Congress 
  from the State of Florida, and chairman, Subcommittee on the 
  Middle East and North Africa: Prepared statement...............    51


    THE MIDDLE EAST AND NORTH AFRICA FY 2014 BUDGET: PRIORITIES AND 
                               CHALLENGES

                              ----------                              


                        WEDNESDAY, MAY 22, 2013

                     House of Representatives,    

           Subcommittee on the Middle East and North Africa,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 2 o'clock 
p.m., in room 2172, Rayburn House Office Building, Hon. Doug 
Collins presiding.
    Mr. Collins. The subcommittee hearing will come to order.
    Before I begin my remarks, I would like to convey our 
deepest condolences to our former congressional colleague, 
Lincoln Diaz-Balart, who lost his son this week. Chairman Ros-
Lehtinen could not be here this afternoon because she is 
attending the funeral services in Miami.
    Our thoughts and prayers are with his family and I would 
like to observe a moment of silence, please.
    [Whereupon, a moment of silence was observed.]
    Thank you.
    After recognizing myself and Ranking Member Deutch for 5 
minutes each for our opening statements, we will then hear from 
our witnesses and without objection the witnesses' prepared 
statements will be made part of the record and members may have 
5 days to insert statements and questions for the record 
subject to the length and limitations in the rules.
    In addition, without objection Chairman Ros-Lehtinen's 
statement and questions will be included for the record. The 
Vice Chair now recognizes himself for 5 minutes.
    In this era of new challenges, political tensions and the 
ever present potential for conflict, it is vitally important 
that the United States remain a global leader in promoting 
democracy, ensuring regional stability and providing 
humanitarian assistance abroad.
    However, the United States must balance these priorities 
responsibly to be wise stewards of hard-earned taxpayer 
dollars.
    We must ensure that every dollar of foreign aid is spent 
effectively and with the goal of promoting the interests and 
goals of the United States.
    I am concerned by the lack of oversight and transparency 
that exists in many State Department and USAID programs. I am 
also troubled by the seeming lack of a clear and cohesive 
foreign policy agenda under this administration.
    This region is facing significant challenges from the Arab 
Spring to Iran's nuclear proliferation to the raging conflict 
in Syria.
    I hope today's hearing will provide clarity and certainty 
to the question of how the administration is using taxpayer 
dollars to promote our national interest in the midst of these 
political and regional upheavals.
    I am pleased that the assistance to Israel remains a key 
component of the FY '14 budget. The importance that Israel 
plays in ensuring regional stability cannot be overstated.
    Amidst the challenges this area of the world is facing, now 
is the time to help Israel preserve its qualitative military 
edge.
    To that end, I recently introduced House Resolution 1992. 
This legislation would increase the QME reporting frequency and 
ensure the President considers cyber and asymmetric attacks in 
this evaluation.
    At this time, I'd like to recognize the ranking member, Mr. 
Deutch, for his opening statement.
    Mr. Deutch. Thank you, Mr. Chairman. Assistant Secretary 
Jones, Assistant Administrator Romanowski, thanks for being 
here today.
    I couldn't imagine a more timely hearing for this 
subcommittee as we continue to face serious challenges in this 
volatile region and grapple with how to adequately address them 
from a U.S. policy perspective.
    The FY 2014 budget request for the Near East is $7.36 
billion and I'd like to point out, as I have done routinely in 
this committee, the entire international affairs budget makes 
up only 1 percent of the total budget.
    We must ensure, however, that these dollars are being used 
in the most effective and efficient manner possible. I'd like 
to take a moment and commend the humanitarian work that State 
and USAID are doing in Syria.
    As we struggle with the appropriate role for the U.S. in 
Syria, we cannot ignore the need for an immediate response to 
the humanitarian crisis.
    As the violence in Syria threatens to spill over into 
Jordan and Lebanon, we must examine the destabilizing effect 
that spillover could have on the region.
    Lebanon is sheltering 400,000 Syrian refugees while 
Hezbollah's engagement in Syria has emboldened its threats 
against Israel.
    I'm very pleased to see that this year's assistance to 
Israel remains intact. As Israel faces threats from Hezbollah 
and Hamas and the existential threat of a nuclear-armed Iran we 
must ensure that our ally can defend herself and our interests 
in the region.
    The over \1/2\ million Syrian refugees inside Jordan are 
compounding its already vulnerable economic situation. Jordan's 
a lynchpin for the region. The collapse of Jordan would have 
serious implications for the security of Israel and for Gulf 
cooperation.
    Under Jordan's auspices, U.S.-led security training helps 
to ensure stability in the West Bank. In addition to the FY 
2014 ESF and FMF requests, President Obama has announced $200 
million for humanitarian relief in Jordan. We must continue to 
support our crucial ally.
    With respect to Egypt, I understand the concern among some 
as to why the U.S. continues to provide aid, given some of the 
actions of the Morsi government over the past year.
    I support our continued relationship with the Egyptian 
military but those cannot be the only ties between our 
countries.
    We cannot ignore the human rights abuses, the repression of 
women and religious minorities and the refusal of the Morsi 
government to engage in an inclusive political process.
    The newly proposed law restricting NGO operations is 
particularly concerning and it poses a great threat to USAID 
partners working to strengthen civil society.
    We cannot help rebuild a democratic Egypt simply by 
providing tanks and fighter jets. We must help support the 
governance and independent judiciary and greater civic 
participation.
    As we normalize our support role in Iraq and scale down our 
assistance by over 50 percent, we must encourage an inclusive 
political system in Iraq where a growing sectarian divide 
threatens to push the country into chaos.
    In Iran, as we continue to pursue all options for 
preventing the regime from obtaining nuclear weapons 
capabilities, we must find ways to engage the Iranian people 
who deserve to live in a free and democratic society.
    I'm extremely disheartened by yesterday's disqualification 
of former President Rafsanjani and the immediate steps the 
regime took to repress its own people and freedom of 
expression.
    This, unfortunately, all but assures that the upcoming 
Presidential elections will again not reflect the true will of 
the Iranian people.
    In short, I believe the U.S. needs to be able to react and 
respond with flexibility to challenges in the region. The $580 
million requested for the Middle East and North Africa 
Incentive Fund is designed to give us that flexibility and I 
hope that our witnesses will be able to give us a greater sense 
today of how they envision that fund being used and ensure that 
we are not duplicating the efforts of the Middle East 
Partnership Initiative or other transition funds.
    Secretary Jones, Administrator Romanowski, as you are well 
aware, 5 minutes is simply not enough time to address the 
challenges we face in the region, from rebuilding an 
economically stable Tunisia to strengthening the rule of law in 
Libya to investing in human capital in Yemen.
    Each country has its own complex set of challenges and 
issues and each one requires a different policy approach.
    I look forward to a productive discussion with you today 
and I yield back.
    Mr. Collins. I appreciate the ranking member's statement. I 
appreciate also the witnesses being here today and I look 
forward to hearing from them. I would now like to introduce 
them.
    First, Ambassador Beth Jones is the Acting Assistant 
Secretary of State for the Near East. Prior to this, she served 
as the deputy special representative for Afghanistan and 
Pakistan, and as the Assistant Secretary of State for Europe 
and Eurasia under Secretary Powell.
    Having served as a Foreign Service officer for 35 years 
with postings in Kabul, Cairo, Amman, Baghdad and Berlin, 
Ambassador Jones has held numerous senior positions at the 
Department of State.
    Our second witness, Ms. Alina Romanowski, is the Acting 
Assistant Administrator at USAID's Bureau for the Middle East.
    Prior to that, Ms. Romanowski has had a long and 
distinguished career in government service, having previously 
held numerous senior positions in the State and Defense 
Departments involving the Near East and South Asia.
    She is also the recipient of numerous awards for her public 
service including the Presidential Distinguished Rank Award for 
senior executive service.
    Ambassador Jones, you are now recognized for 5 minutes.

    STATEMENT OF THE HONORABLE BETH JONES, ACTING ASSISTANT 
   SECRETARY OF STATE, BUREAU OF NEAR EASTERN AFFAIRS, U.S. 
                      DEPARTMENT OF STATE

    Ambassador Jones. Thank you very much.
    Chairman Collins, Ranking Member Deutch, distinguished 
members of the subcommittee, thank you very much for inviting 
me and the acting administrator, Assistant Administrator 
Romanowski, to appear before you today to discuss our FY 2014 
budget request.
    The Middle East and North Africa continue to experience 
tectonic, political, social and economic changes. We are on the 
precipice of a possibly dangerous transformation that could 
last for generations.
    The tension between democratic values of human rights, 
tolerance and pluralism, and threats to those principles 
including extremism and persecution of minorities is growing.
    These dynamics present new challenges and opportunities for 
U.S. engagement. We must be equipped to capitalize on these 
opportunities to ensure that our interests, goals and values 
are secure.
    Although the region has undergone monumental changes in the 
past 2 years, our fundamental interests remain the same-to 
protect Israel's security and advance Middle East peace, to 
curtail Iran's destabilizing influence in the region and ensure 
that it upholds its international obligations and to work with 
those in the region who are yearning for dignity, opportunity 
and a role in determining their future.
    We are refocusing our engagement so that they can achieve 
those fundamental objectives within the new reality and we are 
responding to crises that threaten our interests and the 
security of the region and supporting the Syrian people as they 
continue to suffer under a brutal regime.
    We will continue to support, protect and defend our 
diplomats, development professionals and our facilities as we 
pursue our objectives.
    This is not easy. The transitions underway are the foreign 
policy challenge of our time.
    New leaders face tremendous challenges in responding to 
their citizens' raised expectations as they learn the ropes of 
new participatory and constitutional processes and grapple with 
Syria's security challenges.
    Our budget request reflects what we know to be true. To 
advance and protect our interests we must engage in the region. 
We must be a partner and a positive influence seeking to ensure 
that what emerges from these transitions are pluralistic, 
prosperous, durable countries that can be partners in the 
pursuit of shared interests. Our request is for $7.36 billion 
and our request for NEA State operations funding is $1.15 
billion.
    As we continue to face a constrained budget environment at 
home, this request reflects our critical national security 
interests and enduring commitments.
    Ensuring Israel's security in achieving a negotiated 
solution to the Israeli-Palestinian conflict is at the core of 
our interests.
    Our request for military assistance to Israel is for the 
full amount of our MOU and reflects our unshakeable commitment 
to Israel's security as it faces significant threats.
    Our assistance to the Palestinian people is aimed at 
building a capable Palestinian partner government committed to 
peace and a two-state solution.
    Supporting the development of security and law enforcement 
professionals, local governance systems and economic reform 
contributes to overall stability. As of 2011, terror attacks 
have dropped 96 percent since the previous 5 years.
    Our military assistance to Egypt underpins the peace treaty 
between Israel and Egypt and promotes key U.S. security 
interests. Economic, governance and security assistance will 
support the Egyptian people and encourage their government to 
follow the path of reform.
    The largest increase from our FY 2012 request is our 
request for $580 million to create the Middle East and North 
African Incentive Fund.
    This account would provide resources commensurate with 
emerging and evolving challenges and opportunities. It will be 
used to promote political, institutional, economic and security 
sector reform.
    This new funding is offset by significantly reduced 
assistance for Iraq where we are encouraging the government to 
fund its own security and to provide for the needs of its 
citizens.
    Finally, we must be ready in FY 2014 for the transition in 
Syria to a post-Assad government deserving of our support. The 
transition in Syria holds the potential to weaken Iranian 
influence throughout the region and to remove a key state 
sponsor of terrorism, enhancing regional stability.
    We will need to invest new resources to shape this 
strategic transformation. When the Berlin Wall came down in 
1989, we responded significantly to that opportunity, making 
available billions to support transitions to democracy.
    We see these challenges in the Middle East through the same 
lens.
    We are responding with strategic investments and new 
strategies that reflect the critical need to engage despite the 
tremendous fiscal constraints we face here at home.
    I thank the subcommittee for holding this hearing and I 
look forward to answering your questions.
    [The prepared statement of Ambassador Jones follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Collins. Ambassador, thank you so much.
    Now, Ms. Romanowski.

    STATEMENT OF MS. ALINA L. ROMANOWSKI, ACTING ASSISTANT 
  ADMINISTRATOR, BUREAU FOR THE MIDDLE EAST, U.S. AGENCY FOR 
                   INTERNATIONAL DEVELOPMENT

    Ms. Romanowski. Chairman Collins, Ranking Member Deutch and 
members of the subcommittee, thank you for the opportunity to 
discuss USAID's FY 2014 budget request.
    USAID's assistance is an effective instrument in the long-
term security and prosperity of this critically important and 
rapidly evolving region. It is an investment in our own 
economic health and national security.
    Over the last 30 years that I've worked on the Middle East, 
I've learned that democratic transitions take time.
    It's a messy process, but 2 years after the Arab Spring the 
common desire for dignity, opportunity and self determination 
that originally spurred people to action continues to drive 
these transitions across the region.
    USAID is requesting $1.2 billion to continue to support 
people as they write new Constitutions, as they carry out free 
and fair elections and as they advocate for increased 
participation in their country's politics and economic growth.
    We are focused on making smart and sustainable investments 
in a difficult budget environment. Our request reflects our 
commitment to helping governments be more responsive to the 
needs of their people by supporting democratic reform, 
inclusive economic growth, a thriving civil society and 
addressing the needs of vulnerable populations including women 
and youth.
    I'd like to give you a snapshot of some of the work USAID 
has been doing in support of these transitions beginning with 
the crisis in Syria and its impact on the region.
    There are now 1.5 million Syrian refugees in neighboring 
countries while inside Syria an additional 6.8 million people 
are in dire need of humanitarian assistance. We are providing 
nearly $514 million in humanitarian assistance.
    We're also committing $250 million in civilian transition 
assistance to the Syrian coalition in support of local leaders 
who are trying to lay the groundwork for a stable and 
democratic future.
    The increasing refugee influx into Jordan and Lebanon is 
severely straining their resources and our FY '14 request will 
allow USAID to help host communities cope with this strain.
    Egypt remains a critical priority for regional stability 
and Middle East peace. We are making smart investments by 
responding to citizens' demands for better education, jobs and 
rights.
    We will also further capitalize the Egyptian-American 
Enterprise Fund to continue to promote small and medium 
enterprises, and to address the aspirations of Egypt's young 
people we are launching the new U.S.-Egypt Higher Education 
Initiative.
    Through scholarships, university partnerships and private 
sector engagement we will provide thousands of young Egyptians 
opportunities to build skills that will lead to jobs in key 
fields needed for today's global economy.
    Turning to Tunisia, we will continue to support the 
political transition process through programs in economic and 
political reform, workforce development, open and transparent 
governance and private sector investment and growth such as the 
Tunisian-American Enterprise Fund.
    Yemen faces some of the biggest challenges including dire 
humanitarian conditions. Yet despite these obstacles, the 
country is progressing under an inclusive national dialogue 
which will lead to a constitutional review and culminate in 
national elections early next year.
    Our request will assist the transition by supporting 
constitutional review, elections and voter registry reform and 
will allow us to improve health services and access to quality 
basic education, especially for girls.
    Our critical work in the West Bank and Gaza will continue 
to provide the foundation for a negotiated and sustained two-
state solution to the Israeli-Palestinian conflict.
    Our request will continue to support Palestinian 
institution building by providing assistance in the areas of 
democracy and governance, education, health and water resources 
as well as direct budget support to the Palestinian Authority.
    Finally, on Iraq, like other U.S. Government agencies USAID 
is reducing our programs and presence. As such, we have not 
requested funding in FY '14.
    Existing funds will continue programs that support 
vulnerable populations, strengthen civil society, improve 
governing institutions and promote private sector development.
    In conclusion, I am confident that the President's FY '14 
budget request sustains the foundation for USAID to partner 
with and positively influence these countries to address the 
challenges and advance the changes we have begun to see in this 
critically important region.
    I appreciate the opportunity to appear before you today and 
I'm happy to answer your questions. Thank you.
    [The prepared statement of Ms. Romanowski follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Collins. Thank you. I appreciate both of you being here 
and now I will recognize myself for 5 minutes of questions.
    Since 1979, Egypt had been the second largest recipient of 
U.S. foreign assistance. Currently, Egypt receives $1.3 billion 
annually through Foreign Military Financing.
    State Department is requesting an additional $250 million 
for Fiscal Year 2014 for economic growth and political reform.
    In addition, Egypt is receiving $4.1 million in 
international narcotics and law enforcement money, funds for a 
total of $1.6 billion this year.
    This does not include additional funds Egypt could receive 
through international funds as well.
    What conditions has the State Department put on the foreign 
assistance to the Egyptian Government at this time?
    Ambassador Jones. We have an important strategic 
relationship with Egypt, given its position in the Middle East 
and given its partnership with Israel in supporting the Egypt-
Israel peace treaty.
    That's a fundamental of our relationship with Egypt and 
we've been pleased to see how much President Morsi has worked 
to assure the maintenance of that peace treaty, peace in Gaza 
and he and his military have worked well with Israel to 
maintain the cease fire in Gaza that Morsi--President Morsi 
helped to negotiate.
    All of the FMF, the Foreign Military Financing, that we 
provide to the Egyptian military, to Egypt through the Egyptian 
military, we think furthers those goals.
    It allows us to work with the Egyptian military in ways 
that demonstrate that they share our strategic goals for Egypt 
and for the region.
    The Egyptian military provides us considerable benefits 
including overflight access--privileged access through the Suez 
Canal, counterterrorist cooperation, access to the U.S. 
military, and we're increasingly working with the Egyptian 
military and the Egyptian Government on border control--border 
controls and counterterrorist operations.
    The additional assistance that we provide--we provide Egypt 
is to support Egypt's transition to a democratic government, to 
a democratic society.
    It is a very long transition. It's a difficult transition. 
When you think how far Egypt has come since Tahrir Square it's 
an impressive transition so far but there's still a long way to 
go.
    The work that we do with the Egyptian Government and with 
civil society is focused on building those democratic 
transitions and at the same time the assistance gives us a 
chance to talk in quite a bit of detail with the Egyptian 
Government--various elements of the Egyptian Government about 
the importance of maintaining democratic institutions, about 
the importance of there being an NGO law that comports and 
complies with international principles and international 
standards.
    It allows us to talk in quite a bit of detail about the 
importance of religious freedom issues, protection of 
minorities, protection of women and the kinds of things that we 
think are important in terms of U.S. values.
    Nothing that we do with Egypt is automatic. We are able to 
keep a string on anything that we may provide so that we can be 
certain that the assistance that we provide Egypt is being used 
in the way it's meant to be used and so that we can continue to 
maintain the dialogue that we need to, both with the Egyptian 
Government, with the opposition and with Egyptian civil 
society.
    Mr. Collins. Okay. Ambassador, I appreciate that. I think 
the concern you have here is--the Egyptian military and their 
working relationship we understand--I think there's a concern, 
and we may get to this in a little bit, with the Morsi 
government itself being stable enough in the region.
    The reason I ask, you know, what conditions we have here is 
because the human rights organizations have stated that 
President Morsi has jailed--in his first 200 days in office he 
has jailed more Egyptian citizens under the charge of insulting 
the President than even President Mubarak had.
    We still have claims with the Muslim Brotherhood, who is 
growing in influence, who has yet to recognize even the 
existence or Israel's right to exist.
    These are the kind of things that concern me and they're 
concerns, and we've heard a lot about a Syrian red line. Is 
there a red line with Egypt?
    Is there a red line to say what--Morsi's dismissing of the 
Constitution, mass incarcerations, not protecting liberties? 
Where is the line that we deal with with Egypt in this?
    Ambassador Jones. We--as I said in my opening remarks, 
engagement, we think, is the absolute critical part of the work 
that we do in Egypt with the Morsi government, and with civil 
society there.
    We have lost not a single opportunity to speak with 
President Morsi and with his senior officials about the 
importance that we attach to speaking out against the judiciary 
when it undertakes the kinds of arrests that you've talked 
about.
    Those we find unacceptable. We've asked very recently--even 
as recently as yesterday, we've called on the Egyptian 
Government to speak out against those, that those are not the 
measure of a democratic government.
    They are not the measure of the new democratic society that 
people fought for in Tahrir Square. We have lost not a single 
opportunity to speak to President Morsi about the importance of 
maintaining religious freedom, about the importance of 
protecting the Coptic Christians, the importance of protecting 
women so that we can--and we have used these opportunities to 
underscore how we can use our assistance programs to enhance 
the ability of his government and civil society to work 
together to develop the democratic institutions that the 
Egyptian people fought for in Tahrir Square.
    Mr. Collins. Well, Ambassador, I appreciate the openness 
and the dialogue.
    My concern is, and my time is up and I'm going to move on, 
but my concern is that the dialogue being open that is always 
going to be open in the sense that we can always talk about it.
    The question is where--and maybe we'll get to it later--and 
when does the talk sort of end. When do we--after not seeing 
any results, what are we doing to draw the red line there, and 
we'll come to that.
    But my time has ended. I want to now recognize the ranking 
member for his line of questioning.
    Mr. Deutch. Thank you, Mr. Chairman.
    I wanted to pick up with where the full committee left off 
a little while ago, which is Iran.
    And in particular, the news of the past day and a half or 
so about the upcoming elections, the steps that the regime has 
taken to prevent the transmission of information, the 
limitation on the number of candidates and who those candidates 
are, and I'd start by going back to the crackdown on the 
protests in 2009 after the elections.
    And I'd ask what's being done to prepare for different 
election outcomes including the possible protests, the 
potential election of a reformist, which seems to have been 
lost based on the slate that was approved, or any potential 
conflict between Ahmadinejad and the Supreme Leader.
    That's the first question, and then the second I think 
flows from that and that's the question of human rights in 
Iran.
    Iran continues to be one of the most egregious human rights 
violators in the world, particularly as it relates to freedom 
of expression which, again, as I pointed out and as press 
accounts have pointed out, that repression has heightened 
dramatically just in the past couple of days ahead of the 
elections as the government has begun silencing opposition 
voices, imprisoning dozens of journalists, filtering the 
Internet. What are--what are we doing?
    I know what Congress is doing and we took another step 
forward with legislation that we'd sent on from our committee 
this morning but what's the U.S. doing to raise awareness about 
the human rights violations in Iran? What more can we be doing?
    Ambassador Jones. Thank you, Congressman. We are--to answer 
your first question, we are very concerned about the fact that 
the Guardian Council, which is not accountable to the Iranian 
people, is the one that disqualified hundreds of candidates and 
were the ones who selected the eight candidates for the next 
election who appear to be--they disqualified others based on 
very vague criteria and they selected those who seem most 
likely to represent the interests of the Guardian Council.
    We use our assistance in part to work with, for example, 
Internet companies to help Iranian citizens circumvent the 
restrictions that the Iranian Government puts on Internet 
access so that Iranian citizens are able to have access to 
information about what's going on in Iran, about the Supreme 
Council and the--and this questionable selection process, and 
of course about the candidates that are being put before them.
    Congressman, I can't answer the question as to what could 
happen in terms of--in terms of opposition or demonstrations by 
reformers against what has happened. Those demonstrations 
haven't happened yet.
    But we use the assistance as best we can to shore up the 
ability of Iranian civil society to understand what they're up 
against, to communicate with each other, communicate with the 
outside world and to increase the space in which they have to 
operate to try to establish or try to bring about some of the 
democratic institutions or at least the basis for democratic 
institutions that they all strive for.
    In terms of what the United States is doing to highlight 
human rights abuses, there is no question that Iran is a 
flagrant human rights abuser.
    There are significant abuses that they take out against 
their own citizens, that they undertake elsewhere in the world.
    We are particularly concerned about the export of Iranian 
extremism in all forms throughout the Middle East, which we can 
talk about separately.
    But we waste no time to point out in public what the 
Iranians are undertaking in terms of human rights abuses.
    Mr. Deutch. Thank you.
    I appreciate it and it looks like I may have a little more 
time so I'll yield back for now. Thank you, Mr. Chairman.
    Mr. Collins. Thank you, and just to alert members we will 
probably have a second round of questions so if you can't get 
to what you want to now we'll get to you on the next.
    At this time, the Chair recognizes the gentleman from 
Texas, Mr. Weber.
    Mr. Weber. Thank you, Mr. Chairman. My question really has 
to do with the Camp Liberty residents and I'll let either one 
of you take it up, if you would.
    The State is requesting $22.5 million in economic support 
for Iraq. Instead of handing out American tax dollars 
unconditionally why doesn't the administration use that money 
to either--as leverage, I guess, to urge the Iraqi Government 
to better secure the Camp Liberty residents or move them?
    Ambassador Jones. Thank you very much for that question.
    We have been working very collaboratively, actually, with 
Prime Minister Maliki to assure the safety of the residents of 
Camp Liberty.
    We are in constant conversation with Prime Minister Maliki 
and with his administration about increasing security there. 
But more importantly, we----
    Mr. Weber. And I'm sorry, Ambassador. How long have they 
been there, in the camp?
    Ambassador Jones. They've been there a couple of months.
    Mr. Weber. And are you aware of the number of deaths that 
have occurred in the camp?
    Ambassador Jones. I am aware of the number of deaths. There 
are----
    Mr. Weber. Would you recount those for us, please?
    Ambassador Jones. I don't have the numbers with me. I'm 
sorry.
    But what I would like to focus on, if you'd permit me, is 
how much work we are doing to get--to find places for the 
residents of Camp Liberty to move to so that they are safe and 
secure, so that they are out of Iraq, so that they are in 
places where they can carry on a normal life, which they're not 
able to do in Camp Liberty in Iraq.
    The important thing is for the MEK leadership to make sure 
that their compatriots know about these opportunities. We've 
spent considerable amount of time, for instance, to open space 
for residents of Camp Liberty to move to Albania.
    Very few have been allowed to move have moved so far. We 
also----
    Mr. Weber. You say they have not been allowed to move?
    Ambassador Jones. Correct.
    Mr. Weber. And why is that?
    Ambassador Jones. That's unclear but there seems----
    Mr. Weber. Isn't that something that we ought to be getting 
to the bottom of?
    Ambassador Jones. It's--yes. We spend a tremendous amount 
of time with the leadership of the MEK to help them understand 
how important it is that they encourage their compatriots to 
take advantage of these opportunities, and for their own 
reasons they are reluctant to promote this in as transparently 
aggressive a way as might be appropriate.
    Mr. Weber. Okay. That's all I'm going to ask right now, Mr. 
Chairman. I yield back.
    Mr. Collins. Thank you. And now I'll yield back to the 
ranking member, who is holding the fort down for his side over 
here today.
    Mr. Deutch. Thank you, Mr. Chairman.
    Ms. Romanowski, I want to again thank USAID and State for 
the vital and underappreciated role that is played in providing 
humanitarian relief to the Syrian people.
    The U.S. has now contributed $510 million to those 
suffering from violence in Syria with assistance that provides 
water, sanitation, hygiene, food assistance, shelter, health 
care and protection services.
    It's been, I think, a heroic effort but we know that even 
this amount of assistance remains woefully insufficient to meet 
the spiraling needs of a war-ravaged country because people are 
killed, injured and forced to flee their homes on a daily 
basis.
    Therefore, with respect to our humanitarian assistance in 
Syria can you outline some of the challenges that we're facing 
and how Congress might help the administration do even more to 
help address the humanitarian crisis?
    Ms. Romanowski. Excuse me. I thank you for the question. We 
would agree with you that the humanitarian situation in Syria 
is increasing and presents a huge problem for the international 
community and the support that we all have.
    We have our--we are working with the international 
community to raise additional resources and to bring their 
resources to bear on the problem.
    We are working to ensure that the humanitarian assistance 
that is available that we can provide is getting to all the 
governorates in Syria as well as the communities in Lebanon and 
in Jordan.
    In fact, I was just in Jordan a few weeks ago where I did 
see firsthand the impact that our programs are having in 
Jordan, such as the water resources, building new schools and 
improving hospital facilities, has included a lot of work for 
the Syrian--for the Syrian refugees there.
    We are as vigilant as we can be in tracking the 
humanitarian assistance and also the humanitarian crisis and 
are looking and are constantly engaging with our international 
donors on how we can best get the assistance in there.
    There are times where it is difficult to get our assistance 
in there but we are doing what we can to make sure that we also 
don't put our people in harm's way.
    Mr. Deutch. I wonder, given the $\1/2\ billion investment 
in humanitarian relief aid and the difficulties that you 
outline in how to provide it and how to ensure the safety of 
the humanitarian workers, Ambassador Jones, I wonder whether 
there ought to be a broader discussion about the possible 
creation of a humanitarian corridor, whether that's something 
that the United States should--the extent to which the United 
States should help participate in that, whether it's something 
that can be done in conjunction with our allies.
    This is--there are lots of discussions about what we ought 
to be doing in Syria but certainly as we talk about the 
humanitarian needs it seems that this is something that should 
at least be a major part of the conversation and it doesn't 
seem to be, and I wonder if you can comment.
    Ambassador Jones. It's a very good question, Congressman, 
and it's something that we talk about, especially our 
humanitarian experts talk about, with their colleagues 
internationally as to how can we enhance, how can we improve 
our ability to get humanitarian supplies to all the communities 
in Syria that need them, and as my colleague has outlined, the 
need is huge.
    There are a variety of ways that one could go after a 
humanitarian corridor, as you mention it. We certainly have 
spent quite a bit of time with our own--with the Free Syrian 
Army commanders that we know well, other members of the Syrian 
opposition coalition to talk about how they might facilitate 
the travel and the transportation of humanitarian supplies 
through Syria.
    And that's one of the reasons that we've provided and we 
hope to provide communications equipment to them so they can 
communicate along the way through the various armed groups that 
form the Free Syrian Army so that these supplies can get 
through.
    We have had conversations internationally including with 
our Russian colleagues to see if there isn't a way that they 
can help us enhance the ability of humanitarian organizations 
to get food and the medical supplies through.
    But I think what you're talking about----
    Mr. Deutch. If I could, and I'm out of time, but if I could 
just--if I could just make this observation. I understand that 
it's difficult--that there are very serious decisions that have 
to be made about what to do in Syria.
    I understand the role that Russia plays in this. There are 
a lot of moving pieces.
    But it certainly seems that with respect to the 
humanitarian part of this crisis that is caused by the ongoing 
slaughter of the Syrian people by Assad, that certainly even 
those nations with which we deal who have closer relationships 
with Assad would acknowledge that it is in our collective best 
interest to take some sort of action to at least stop or at 
least slow the bloodshed.
    I would just leave that on the table and I yield back the 
rest of my time.
    Mr. Collins. The gentleman yields back. The Chair now 
recognizes the gentleman from Florida, Mr. Yoho.
    Mr. Yoho. Thank you, Mr. Chairman. Ambassador Jones and Ms. 
Romanowski, I appreciate you being here.
    If you could, help me think outside of the box here because 
every time I've come to one of these meetings and over the 
course of my adult life I hear that we need to throw more money 
into the Middle East.
    We need to bring security. We need to help on human rights 
violations, abuse to women, religious persecution, lack of 
property rights, corrupt repressive governments.
    And we throw them money year after year, and in this state 
and time in our economy when we're borrowing 43 cents on every 
dollar to send it over there without doing something different 
would be absolutely ludicrous, I feel.
    And if you can come up with a better way of bringing 
stability because the bottom line is no matter how much money 
you throw there you're going to have a repressive form of 
government. And to bring democracy, I understand that and I 
understand what you're trying to accomplish.
    But yet when you look back when Mubarak stepped into the 
role of President people said--after Anwar Sadat got killed and 
there was that interim in there they said, who's going to be 
your next President according to your Constitution?
    They said don't worry about our Constitution because none 
of the Egyptian people understand the Constitution. The person 
that's going to be the next President is whoever is in charge 
of the military.
    So you have a repressive government going to a repressive 
government, and as my colleague down here, Mr. Collins, said, 
you see more persecution or more arrests under President Morsi.
    So what can we do different than money at this point in 
time in our country? And I'd like to hear both of your thoughts 
on that. Thank you.
    Ambassador Jones. You asked for what I--what we're doing 
differently--what are the ideas that we have that are not the 
same old ideas, and I appreciate that very much.
    The situation, of course, that we have is quite different 
than the one we had even 2 years ago because of the Arab 
Spring.
    We are dealing----
    Mr. Yoho. I'm going to interrupt you there. I agree it is 
right now.
    But if you look at over the course of the last 30 years 
there's been several times just like now and if you go back 
over the course of the last 2,000 years there have been the 
times that we have right now.
    And so I agree it is different right now but it's not that 
much different than we've seen over the past 2,000 years.
    Ambassador Jones. But we have tools that are quite 
different now and we have practices that are quite different 
now than they--than they were--I don't know about 2,000 years 
ago but than they were in the past.
    And they go--they work in the following ways. We have two 
kinds of funds that we use now and we're just asking for $580 
million for the Middle East North Africa Incentive Fund as a 
new tool, as a new way to deal with the challenges that we find 
in the Arab Spring countries, in these new democracies.
    This fund allows us the flexibility to work with these new 
governments as they see the opportunities, as they focus on the 
areas that they are able to focus on to develop the democratic 
institutions that they need.
    So this is particularly important in Tunisia, for instance. 
It's particularly important even in Libya but certainly also in 
Egypt, Yemen and we will be using it, I hope someday, in Syria.
    This is to incentivize governments to work on the kinds of 
things that they need to develop democratic institutions 
whether it's rule of law issues, whether it's how to hold an 
election, another election that's free and fair, whether it's 
on things like weapons abatement.
    Because one of the big challenges that we see right now 
with the Arab Spring is as these governments are learning--and 
their populations are learning the ropes of developing 
democratic institutions they are confronted with huge security 
challenges that require a lot of immediate help and that's--and 
that we can do through the main incentive fund as well.
    So even though we have--we have programs that we use in 
these countries to work with civil society, we want to be able 
to do both.
    We want to have the flexibility to work with civil society 
as there are challenges that we develop, whether it's on 
economic reforms, security reforms, political reforms but also 
this MENA Incentive Fund allows us to work with governments as 
they struggle to figure out how to make this democracy that 
they have in their hands--how to make it work.
    Mr. Yoho. Thank you. I'm going to ask Ms. Romanowski to add 
in there. Thank you.
    Ms. Romanowski. Thank you, Congressman.
    I think we do have a number of tools that we have actually 
brought in the last couple of years to find a different way to 
engage the Egyptian people and the process that they're going 
on in this transition.
    I just want to point to a few. The first one, I would say 
is, again, we have focused a lot more of our support directly 
to civil society organizations and to bring the technical 
expertise that they need to build up their ability to advocate 
for their interests, to understand what it is like to have 
civil organizations that advocate and that work closely with 
government institutions or within their own societies to 
promote what their interests are and to collect their 
interests.
    I want to point to the fact that we have shifted a lot of 
our--and are continuing to look for ways that we draw in more 
the private sector, both the international private sector and 
the Egyptian private sector, in focusing on investing in their 
own country.
    I would say that the U.S.-Egyptian Enterprise Fund has been 
a very successful and a very new approach to attracting the 
private sector and focusing on building up small and medium 
enterprises.
    And finally, I just want to point out to the fact that we 
are looking at launching this U.S. Higher Education Initiative 
which is directly focused on Egyptian young people and giving 
them skills through scholarships.
    We're looking at a very large investment in building 
university partnerships to help in changing the way Egyptians 
learn, how institutions teach them and bring actually the 
private sector into this process as this has been successful in 
our own country as we were looking at how to generate jobs for 
our own.
    So we are bringing a lot of lessons learned into the new 
toolkit that we have to engage with the Egyptian people.
    Mr. Collins. Okay. The gentleman's time has expired.
    Mr. Yoho. Thank you, Mr. Chairman.
    Mr. Collins. The Chair now recognizes the gentleman from 
Virginia, Mr. Connolly.
    Mr. Connolly. Thank you, Mr. Chairman.
    The idea that not much has changed in 2,000 years in this 
region I can't quite let go by, Ambassador Jones.
    How about a little history lesson between us here? Was 
Islam around 2,000 years ago?
    Ambassador Jones. No.
    Mr. Connolly. Was Christianity around 2,000 years ago?
    Ambassador Jones. No.
    Mr. Connolly. Were--who was in the region we know as the 
Middle East governed by one unity at the time?
    Ambassador Jones. Certainly not.
    Mr. Connolly. Roman Empire, however, had a footprint in the 
region, we would agree, correct?
    Ambassador Jones. Correct.
    Mr. Connolly. So the forces at work in the Middle East 
2,000 years ago actually were pretty fundamentally different 
than the forces at work today. Might one conclude that?
    Ambassador Jones. Yes.
    Mr. Connolly. Well, now, the other interesting thing I just 
heard from our colleague was can't we do something other than 
money--shouldn't we do something other than money?
    The Camp David Accords--correct me if I'm wrong--another 
little piece of history here, was the first formal accord since 
Israel's independence between an Arab belligerent state and the 
state of Israel, sealing a peace accord formally.
    Is that correct?
    Ambassador Jones. Absolutely.
    Mr. Connolly. Now, the United States was the convener of 
the Camp David Accords. That's why it was named after Camp 
David, which is in Maryland. Is that not correct?
    Ambassador Jones. Absolutely.
    Mr. Connolly. And did we not agree to help finance some of 
the positive attributes that flow from Camp David and did we 
not consider it cheap at the price--that is, the price of 
peace?
    Ambassador Jones. It is absolutely cheap.
    Mr. Connolly. And would it be fair, do you think, to say--
you can chime in here, Ms. Romanowski--that whatever the cash 
flows to both Israel and Egypt pursuant to the Camp David 
Accords have in fact proved their worth--that is to say, it's 
been an enduring peace?
    Ambassador Jones. That's exactly right.
    Mr. Connolly. And prior to Camp David, they were in a state 
of, certainly, readiness for war and had just completed a 
fairly brutal war in 1973. Is that fair?
    Ambassador Jones. 1973, that's right.
    Mr. Connolly. And Ms. Romanowski, have we just wasted all 
this cash that your agency has been, you know, just pouring out 
on Egypt and Israel pursuant to the Camp David Accords?
    Ms. Romanowski. Congressman, I don't believe we have wasted 
a dime.
    Mr. Connolly. Well, has it had dividends?
    Ms. Romanowski. I believe it has had dividends. We have 
seen--we have seen an emerging Egyptian civil society. We've 
seen Egyptian people look to demand more from their government 
and to demand a stronger economy.
    Mr. Connolly. Well, what about Israel?
    Ms. Romanowski. And Israel is living in peace side by side 
with Egypt and----
    Mr. Connolly. And the economic aid we provided to Israel 
maybe had something to do with Israel's current economic 
success. Do we take any claim for that at all?
    Ambassador Jones. We do, absolutely.
    Mr. Connolly. Your mike is not on, Ambassador.
    Ambassador Jones. We do take credit for that, yes.
    Mr. Connolly. And in fact so much so that they've actually 
sort of graduated in terms of economic development assistance 
and economic support funds. Is that correct? Yeah.
    So other than that, I'm sure cash has no value. But in the 
ensuing years since 1978, 1979, it seems one could observe that 
these are investments that have helped provide stability in a 
region not always known for it and that took a major 
belligerent off the table, giving us some breathing space to 
try to build on that set of peace accords.
    I don't want to put words in your mouth but an observer 
might conclude that from our foreign assistance posture in the 
region.
    Ambassador Jones. That's exactly right.
    Mr. Connolly. Thank you, Mr. Chairman. I yield back.
    Mr. Collins. The gentleman yields back.
    The Chair recognizes the gentleman from Arkansas, Mr. 
Cotton.
    Mr. Cotton. Thank you, Mr. Chair.
    Ms. Jones, thank you for your time and for your service to 
our country of 35 years as a Foreign Service officer. Is that 
correct?
    Ambassador Jones. That's right.
    Mr. Cotton. Do we make Foreign Service officers at age 
seven?
    Ambassador Jones. Thank you.
    Mr. Cotton. When was the last time you testified before a 
committee of Congress?
    Ambassador Jones. I testified on Syria probably about a 
month ago.
    Mr. Cotton. On the Senate Foreign Relations Committee?
    Ambassador Jones. Correct.
    Mr. Cotton. Good. There's a few things that have come to 
light since then about the Benghazi attacks that I'd like to 
discuss with you.
    According to an email that you sent on September 12th you 
had the seen the Libyan Ambassador to the United States that 
day and he said he believed the attacks had been conducted by 
sympathizers to the former Gaddafi regime and that you 
corrected him, that those attacks were conducted by Ansar al-
Sharia, a group affiliated with Islamic terrorists.
    How did you know that on September 12th?
    Ambassador Jones. What actually happened, Congressman, is 
that there were stories coming out of the Libyan press that 
quoted Libyan officials as saying that it could have been old 
adherents of Gaddafi who had conducted the attack in Benghazi.
    And I had a conversation with Ambassador Aujali to say that 
I had seen on the Web sites that Ansar al-Sharia had claimed 
responsibility, that it didn't seem to me that it was 
necessarily the adherents of Gaddafi and that we should--and 
that it would be important to have an investigation to ensure 
that we knew what had happened.
    The reason I had that conversation with him and reported it 
to my colleagues in Tripoli was that I wanted to start the 
conversation about how important it was to be sure that we were 
working on counterterrorist counterextremist activities in 
Libya so that the kind of cooperation that we needed to have in 
Libya and across North Africa and elsewhere in the Middle East 
would be forthcoming.
    Mr. Cotton. Yes, which unfortunately we did not receive, 
given the hostility of the Libyan Government after we blamed it 
on an unruly mob.
    I'd like to move----
    Ambassador Jones. But that was--that is not correct.
    Mr. Cotton. Oh, would you like to--so it is correct?
    Ambassador Jones. What is correct is the Libyan 
Government----
    Mr. Cotton. Did the Libyan Government provide us access to 
the scene of the attacks----
    Ambassador Jones. Yes, they did.
    Mr. Cotton [continuing]. In the immediate aftermath?
    Ambassador Jones. They----
    Mr. Cotton. There was no delay? There was no--there was no 
effort to preclude our investigators or American officials from 
receiving access to those scenes?
    Ambassador Jones. Let me tell the story.
    The Libyan Government was extremely upset by what had 
happened in Benghazi and they offered all possible assistance, 
condolences and support for the United States in pursuing the 
investigation.
    They gave access to the FBI as soon as the FBI wished to 
arrive in Tripoli and they gave full cooperation to the FBI and 
to the investigators to the best of their ability.
    When the FBI asked for access they got access.
    Mr. Cotton. Okay. Obviously, we all know about a series of 
email exchanges on September 14th and 15th about the talking 
points that originated at the CIA and then went to the State 
Department and White House and finally the Deputies Committee.
    On those exchanges, many of which are redacted but have 
their office designation--for example, Office of Congressional 
Affairs or Office of Legislative Affairs at the CIA--I saw the 
names Victoria Nuland, David Adams, Jacob Sullivan.
    I don't recall seeing your name on those email exchanges. 
Do you recall being on those exchanges of the approximately 
hundred pages that were released a couple of weeks ago?
    Ambassador Jones. Congressman, I was intensely busy working 
on--working with my Embassies in the Middle East, 20 of which 
had demonstrations that weekend from across that period of 
time.
    I was not involved in any of the talking points issues and 
so my name wasn't on those emails.
    Mr. Cotton. And I understand. I just wanted to make sure 
that you were not on them. I didn't want to misunderstand.
    Victoria Nuland, who I know, is a spokesman. Who is David 
Adams?
    Ambassador Jones. It might be--it might be appropriate to 
discuss all of this in another setting. This--I'd rather talk 
about the budget request.
    Mr. Cotton. Well, part of the budget request goes to the 
confidence we have in the senior leadership at the State 
Department. So I would like an answer to my question, please. 
Who is David Adams?
    Ambassador Jones. David Adams is no longer at the State 
Department.
    Mr. Cotton. Who was he at the time, ma'am?
    Ambassador Jones. He was the assistant secretary from 
Congressional Relations.
    Mr. Cotton. Jacob Sullivan?
    Ambassador Jones. He worked for--he was the director of 
policy planning.
    Mr. Cotton. But not--so neither one of those were in your 
bureau of Near East Affairs, correct?
    Ambassador Jones. I beg your pardon?
    Mr. Cotton. Neither in Near East Affairs or having a 
particular expertise in Near East affairs?
    Ambassador Jones. I don't understand the question.
    Mr. Cotton. Neither of those officials, David Adams or 
Jacob Sullivan, were part of the Near East Affairs Bureau at 
the State Department?
    Ambassador Jones. No. No.
    Mr. Cotton. I see my time has expired for now.
    Mr. Collins. The gentleman yields back. The Chair 
recognizes the ranking member.
    Mr. Deutch. I thank the chairman.
    I--well, I mean, with all due respect to my friend from 
Arkansas, I'm not sure this hearing is the time or place to 
continue to rehash Benghazi. But because he's brought it up I 
thought I'd respond.
    The fact is that, as we all know, four brave Americans are 
dead. It's a tragedy and if we care about the legacy of the 
loss of those Americans then I think it's imperative that we 
move forward on enacting the recommendations of the bipartisan 
IRB instead of obsessing over who changed which version of 
talking points and a cover up that never happened and is simply 
not backed up by the facts.
    The truth is, the obsession with Benghazi is about 
politics. I don't think it's more than that and I hope my 
colleagues will join me in a bipartisan manner to help us move 
forward in protecting the thousands of American diplomats 
serving around the world.
    The fact is to the extent that this is relevant in a budget 
hearing at all, I think probably what is relevant is the fact 
that the sequester that we're now living under puts our men and 
women serving around the world at greater risk by cutting the 
diplomatic security programs by over $75 million.
    The budget that was passed by the House would gut the State 
Department and other agencies by 13 percent and the truth is 
that we have real and serious challenges in the Middle East.
    There's no question. We've had a chance to talk about some 
of them. There are tens of thousands of Syrians dying or who 
have been killed. There are nearly 2 million or in excess of 2 
million refugees.
    Egypt is on the verge of economic collapse. Iran is 
preparing for what appear to be fraudulent elections and 
continuing their drive for nuclear weapons.
    Libya struggles to put the pieces back together after its 
revolution and sectarian violence in Iraq has killed hundreds 
even as rockets continue to fly, launched by Hamas.
    To put so much of the emphasis of our focus on foreign 
policy on Benghazi still, despite the bipartisan committee that 
made recommendations that have been and are being implemented, 
and to ignore pressing international security issues in order 
to continue what oftentimes--and I do not accuse my friend from 
Arkansas of this today--but oftentimes in other settings by 
other members are really little more than furthering political 
attacks, does, I believe, a disservice to the American people 
that we represent and, quite frankly, to our friends and allies 
around the world. And I yield back.
    Mr. Collins. The gentleman yields back.
    I think--and before I recognize myself for questions I will 
say this and with due respect to the ranking member I do 
believe it has been brought up.
    Benghazi is an issue and it is an issue that deserves 
questions. It goes, as the gentleman from Arkansas said, it 
goes to a trust issue.
    It goes to a trust factor of how we view this, and I think 
inside a budget context there is a budget context because the 
State Department actually said that security purposes were not 
hindered because of budget reasons. There was a lot of other 
issues here.
    As we deal with this and we move forward and we will deal 
with this in other ways, I don't think those records are 
straight and I think getting back to the very fact that this is 
not political--there's four dead Americans--and those are the 
questions that need to be asked.
    But getting back to other questions that we have here for 
this day, I want to switch our attention onto a different level 
and this is given the--basically the MENA IF--the funds and the 
breadth of authority sought for this it would appear that this 
initiative is no different, you know, in all fairness, from a 
slush fund.
    What office within the department will provide oversight 
for the expenditures of these funds?
    Ambassador Jones. Thank you for that question.
    The MENA Incentive Fund will be supervised by my office and 
by AID. What we're looking for is applications from governments 
for particular programs that they wish to pursue and those 
programs will be evaluated and funded based on a set of 
criteria that will be transparent and determined by people who 
are expert in assistance in these kinds of assistance programs.
    Mr. Collins. Okay. Is it State or USAID? Which one is going 
to decide where the money--who has final authority? Who's going 
to say where the money goes?
    I like that. They both looked at each other and said not 
me, not you. You know, no--which one?
    Ambassador Jones. Well, we look at each other because we 
collaborate on all of these things. But we have the final 
decision at the State Department, yes.
    Mr. Collins. State has the final decision?
    Ambassador Jones. Right.
    Mr. Collins. Okay. This is something that--and me, I bring 
a newness to this because, you know, dealing with this--I'm 
used to dealing with concrete kind of things.
    When we're dealing with this issue and that your department 
is going to be overseeing when you're--how, one, will you 
inform Congress of funding decisions, implementation, progress 
or benchmarks but also have there been written guidelines to 
decide what we're going to use, here are the benchmarks we're 
going to use, you know, in determining how this is made?
    Have there been--has that actually been written down or is 
it just assuming we're just going to have oversight?
    Ambassador Jones. I believe that they have been but that's 
something that I'd like to get back to you on because I know 
there's been a tremendous amount of work and a tremendous 
number of briefings that have been provided to Congress about 
exactly how this MENA Incentive Fund is meant to work.
    But one of the--maybe I could just explain one aspect of 
it. One of the things we found during the Arab Spring is that 
we had immediate needs to support civil society and to support 
these emerging governments in the economic reforms and 
democratic reforms that they needed to undertake and we were 
having to pull money from here, there and the other place.
    A lesson learned from that was to establish a fund that 
provided us--that was in one place that provided us the 
flexibility that we needed so that we knew we had some of that 
kind of funding to do the immediate work that would be 
necessary as these governments develop their needs.
    Mr. Collins. Well, Ambassador, I appreciate that and I 
think from a bipartisan perspective here there's the concern as 
you look over this and what we seem to have and I've made this 
statement before is that when something goes wrong it's always 
well, if we'd have had oversight or if we'd have done better we 
would have found the problem.
    Well, here's the starting point right now. I'm asking and 
using these--and you said that, you know, new governments 
emerging in the transitional--why don't we have something now 
that sort of gives a little more structural guidance to this 
instead of saying well, we just sort of have to wing it?
    Ambassador Jones. Mr. Chairman, we do have programs that 
Alina Romanowski can speak in greater detail about that 
addresses a great number of the issues that we know now that we 
need to address whether it's economic reform issues, weapons 
abatement, et cetera.
    But there may be--for instance, we didn't know a year ago 
that we would have to do so much work on the NGO law in Egypt.
    We have been able to bring experts to work with the 
Egyptians to explain to them what is in--what the international 
standard is for an NGO law. That's something that we didn't 
anticipate but we have had the funding----
    Mr. Collins. Okay.
    Ambassador Jones [continuing]. We would like to have the 
funding in order to be able to do. The same thing with the 
Tunisian Constitution.
    We didn't anticipate the needs that the Tunisians--and they 
have had on drafting the Constitution and so we want to be able 
to provide the technical expertise to help them with that.
    Mr. Collins. And what has--besides a hearing like this has 
there been developed processes to inform Congress that these, 
you know, benchmarks are being made, these are what we 
determined?
    What is the process right now for informing Congress in an 
oversight role of this issue?
    Ambassador Jones. We have--my colleagues who work on the 
Incentive Fund are up in Congress all the time discussing 
elements of the Incentive Fund and are briefing all the time on 
what it would do if it were funded.
    Mr. Collins. Okay. Can you be specific in that? Because 
there seems to be an understanding here that that's not taking 
place. So can you be more specific on how that's actually 
happening?
    Ambassador Jones. Mr. Chairman, I don't have the dates that 
my colleagues have been up briefing on the Hill on this but it 
seems to me to be very frequent that they are going on the 
Hill.
    Mr. Collins. Can you tell who they came to see?
    Ambassador Jones. I'll have to tell you. I don't know the 
details.
    Mr. Collins. Okay. Can we get the--I would like to know 
when they came to see, who they came to see, how long their 
implementation because there seems to be some concern here that 
that's not taking place.
    They may be talking about other issues but we're not 
getting it, especially when it deals with benchmarks as we go 
forward here.
    I think that's the concern I have and in this--in looking 
at it from a perspective of just process here and not to be, 
you know, an adversary but this is a working world where we 
work together at this, providing the process is moving forward. 
So as we do so we're wanting the same end.
    We want a peaceful society in which our funds are being 
used in a way that promotes an outcome that is beneficial and 
that's what we're looking for.
    So at this point in time I'll probably--I may have other 
questions but I'm going to go ahead and recognize the ranking 
member for any more questions he might have.
    Mr. Deutch. Thanks, Mr. Chairman.
    Ambassador Jones, when Secretary Kerry appeared before our 
full committee he said that there was a 1- to 2-year window 
remaining for a two-state solution to be viable in the Middle 
East.
    Is that the official position now, the official U.S. 
position?
    Ambassador Jones. Yes. That's certainly his view. He's the 
Secretary of State. He articulated that. That makes it the 
U.S.--the official U.S. position. But it's an estimate on his 
part, in fairness.
    Mr. Deutch. Okay. Switching to Egypt, can you--can you talk 
about the current status of the financial crisis in Egypt, the 
declining foreign currency reserves?
    What does that mean for Egypt's economic stability, the 
prospects for this IMF loan package to go through, how the 
recent Cabinet reshuffle ultimately is going to influence 
Egypt's chances, and given the polarization that's present how 
will Egypt be able to take the kind of actions and make the 
kind of economic reforms necessary that will permit that IMF 
loan package to ever go forward?
    Ambassador Jones. That's a very important issue for the 
United States. It's important to the United States to have an 
economically stable Egypt.
    We have advocated to the Egyptians in great detail the 
importance of their concluding the--a deal with the IMF for 
this loan and to undertake the reforms--the economic and 
structural reforms that are necessary for the IMF to close the 
deal.
    We've explained in some detail why this is important over 
the long term to the Egyptians and we've advocated to them that 
by concluding this agreement with the IMF they unlock 
assistance from other funding organizations.
    They create greater confidence in Egypt's financial future 
and Egypt's economic future, its trade future and it makes 
Egypt that much more interesting for foreign direct investment, 
which after all is key to developing jobs, key to Egyptians and 
to Egypt's future security and prosperity.
    I can't tell you when Egypt is going to conclude the 
agreement with the IMF. We pressed very hard for them to do 
that. I don't know what the Cabinet change means for this.
    But we don't waste time explaining as much as we--
advocating as strongly as we can to the Egyptians the 
importance of their concluding this agreement.
    Mr. Deutch. I mean, do you--when you express that to the 
Egyptians do you believe that we're going to be able to get 
from where we are now to the closure of this loan transaction?
    Will there be the reforms? Is it your sense that in 
weighing the options that it's clear to the Egyptians that the 
reforms that are being required by the IMF and moving forward 
on those reforms is paramount to getting this done and that 
ultimately if they don't get this done it raises the real 
possibility that not just--it's not just that the loan, the IMF 
loan, won't go forward but that the existence of the government 
will be called into question?
    Ambassador Jones. It's a very difficult issue for the Morsi 
government. There's no question about it.
    They certainly see that there are political implications of 
pursuing the reforms because every IMF reform is difficult 
politically.
    But at the same time, as we advocate to the government that 
they need to make these reforms, we advocate also to the 
opposition that they should support the government in making 
these reforms--that no matter--that even though it's 
politically difficult and the government will, as government's 
do, pay a political price to some extent for making these 
reforms that the Egyptian opposition should not take advantage 
of that because it is so much in the long-term interest of 
Egypt to be--to be economically stable and that's just as much 
in the interest of the opposition as it is of the government.
    Mr. Deutch. Right. And that's an that's an interesting and 
important point and do you think that the opposition 
understands that and agrees or will it be too easy to seize 
upon the political opportunity?
    Ambassador Jones. The opposition understands it and agrees. 
Whether that will translate into their making the kinds of 
public statements that would be necessary to support President 
Morsi is a different question. I don't know the answer.
    Mr. Deutch. I appreciate that. Thank you, Mr. Chairman.
    Mr. Collins. The gentleman yields back. And before I 
recognize the gentleman from Arkansas, I'd like just to make--
there was a general brief given after the budget came out.
    What we're looking for is a specific briefing on this fund 
dealing with the very issues that I was talking about--the 
benchmarks, how are they determined. So that is--that was what 
I was referencing on and want to be clear on and we can talk 
about that in a minute.
    At this point, I'll recognize the gentleman from Arkansas, 
Mr. Cotton.
    Mr. Cotton. Thank you, Mr. Chairman.
    I've had a very happy working relationship with my friend 
from Florida. Earlier today or earlier throughout the Congress 
and his comments earlier today doesn't make any kind of impact 
on that.
    I do think that it's important though to explore Benghazi, 
about what happened beforehand so, as he said, we won't have it 
happen again--what happened during and why exactly those four 
Americans died and what's happened since then.
    And the Ambassador has a distinguished 35-year career. She 
served in not only the Obama administration but the Bush 
administration--the second Bush administration and the Clinton 
administration in high-level positions.
    We've already learned two important facts--one, where she 
received those reports on the September 12th email that Mr. 
Gowdy had read into the record at another committee and also 
the fact that she was not involved in the talking points email 
traffic that went back and forth on September 14th and 15th.
    There are matters that have come to light since she last 
testified before the Congress in April and I think it's 
important that she be able to address those.
    The next one I would like to raise is the testimony of 
Gregory Hicks a couple weeks ago. He said that he was very 
surprised by Susan Rice's statements on the Sunday morning news 
shows on September 16th and that he spoke to you about it and 
that you made it clear to him that you didn't want to discuss 
it and you did not want to pursue it.
    Would you care to respond to that, Ms. Ambassador?
    Ambassador Jones. Yes. As I mentioned earlier, I spent that 
week and the weekend focused on the many other demands of my 
posts in the NEA region where there were demonstrations, where 
there was serious damage to our Embassies, where some of our 
people were in danger. We had undertaken evacuations. I was 
working on all of that.
    I spoke to Greg Hicks many, many, many times every day and 
many times every evening. I spoke to him that Monday morning 
after the talk shows. He asked me about it. I said I didn't 
know.
    But there was no implication whatsoever that I was cutting 
off the conversation. None.
    Mr. Cotton. Thank you.
    He also said in that testimony that you ``counseled'' him. 
You said that it was about ``his management style'' and he 
characterized the counseling as ``blistering.'' Would you care 
to respond?
    Ambassador Jones. I'd just as soon not discuss those kinds 
of personnel matters in a public hearing.
    Mr. Cotton. Did you make the decision to counsel, whatever 
the content of the counseling, Mr. Hicks on your own or did you 
receive direction from more senior officers in the State 
Department to counsel him?
    Ambassador Jones. That was a decision I made.
    Mr. Cotton. Did Cheryl Mills direct you to counsel him at 
any point?
    Ambassador Jones. That was a decision I made.
    Mr. Cotton. Okay. Raymond Maxwell, the deputy assistant 
secretary, would that be your chief deputy?
    Ambassador Jones. He's not my chief deputy. He was one of 
my deputies.
    Mr. Cotton. How many deputies do you have?
    Ambassador Jones. Six.
    Mr. Cotton. Okay. Is he still on administrative leave to 
this day?
    Ambassador Jones. That's my understanding, yes.
    Mr. Cotton. Okay. And were you the officer that informed 
him that he would be placed on administrative leave?
    Ambassador Jones. I was not. However, that is also an 
administrative personnel matter that is not within my purview 
and it's not appropriate for me to discuss it.
    Mr. Cotton. It's been reported by Josh Rogin in the Daily 
Beast that this was a decision made by Cheryl Mills and you 
were under the understanding when she made that decision that 
Mr. Maxwell would be reassigned, not placed on administrative 
leave. Is that correct?
    Ambassador Jones. That's a personnel matter that I'd just 
as soon not discuss on an open hearing.
    Mr. Cotton. Thank you. I yield back the balance of my time.
    Mr. Collins. I thank the gentleman.
    At this time, I will note there will be other questions 
that I will be submitting. I do want to thank the Ambassador 
and Ms. Romanowski for being here today.
    This has been a very important hearing because it is really 
the flashpoint for many things we see in the paper. This is one 
of the areas I know from my constituency and others and on both 
side of the aisle's constituency they're concerned about 
because it is something they see played out in the news media 
all the time.
    You being here answering these questions as we go through 
this budget, I think, is a responsibility had by all of us to 
make sure not only is our money well spent but it is to also 
have a programmatic understanding of.
    This is the oversight role. This is the place that we need 
to have these questions. These are the places that we need to 
make sure that we're doing what the American people sent us 
here to do.
    I appreciate your service. I appreciate your time being 
here, and with no others then this committee meeting is 
adjourned.
    [Whereupon, at 3:35 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


               <F-dash>\\<careof><Rx><brit-pound>t<box>s\

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


<F-dash>\<Register><pound>s<ellipse>\<box><star>t<careof><Rx><box><Rx> 
                      stat<box><acctof><box><Rx>t\

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
